No. 19-123

In The
Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,

v.
CITY OF PHILADELPHIA, ET AL.,

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

AMICUS BRIEF OF LIFE LEGAL
DEFENSE FOUNDATION, LIVINGWELL
MEDICAL CLINIC, INC., AND FREE
SPEECH ADVOCATES IN SUPPORT OF
PETITIONERS
THOMAS P. MONAGHAN
WALTER M. WEBER
FREE SPEECH ADVOCATES
6375 New Hope Rd.
New Hope, KY 40052
(502) 549-7020

CATHERINE W. SHORT
Counsel of Record
ALEXANDRA SNYDER
LIFE LEGAL DEFENSE
FOUNDATION
P.O. Box 2105
Napa, CA 94558
(707) 224-6675
kshort@lldf.org

Counsel for Amici

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. THE PRESENT CASE TRANSCENDS
ITS PARTICULAR CONTEXT . . . . . . . . . . 3
II. THE RATIONALES OFFERED BY THE
COURT BELOW THREATEN THE
VIABILITY OF PROTECTION FOR
CONSCIENTIOUS OBJECTION TO
ABORTION . . . . . . . . . . . . . . . . . . . . . . . . . 7
A. Coercion to violate one’s conscience is
one of the worst violations of Free
Exercise . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. The Third Circuit gave short shrift to
CSS’s conscience rights . . . . . . . . . . . . 10
1. Complete intolerance of diverse
approaches . . . . . . . . . . . . . . . . . . . 10
2. Using the charge of discrimination
as a universal cudgel . . . . . . . . . . . 12
a. Disregard of levels of scrutiny . 13

ii
b. Equating diversity with
discrimination . . . . . . . . . . . . . . 14
c. Restricting speech in the name
of eliminating discrimination . . 15
3. Government involvement
transforms human relations
into “public services” . . . . . . . . . . . . 16
4. Beliefs okay, acting on beliefs
penalized . . . . . . . . . . . . . . . . . . . . . 18
C. This Court Should Overrule Christian
Legal Society v. Martinez . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iii
TABLE OF AUTHORITIES
Cases

Page

ACLU of Northern California v. Burwell,
No. 3:16-cv-3539 (N.D. Cal. complaint
filed June 24, 2016) . . . . . . . . . . . . . . . . . . . . . . 5
Bray v. Alexandria Women’s Health Clinic,
506 U.S. 263 (1993) . . . . . . . . . . . . . . . . . . . 4, 14
Bucklew v. Precythe, 139 S. Ct. 1112 (2019) . . . . . 9
Christian Legal Society v. Martinez,
561 U.S. 661 (2010) . . . . . . . . . . . . . . . . . . . 19-20
City of Cleburne v. Cleburne Living Center,
473 US. 432 (1985) . . . . . . . . . . . . . . . . . . . . . 13
Employment Division v. Smith,
494 U.S. 872 (1990) . . . . . . . . . . . . . . . . . . . . 8, 9
Hill v. Colorado, 530 U.S. 703 (2000) . . . . . . . . . . 21
Lawrence v. Texas, 539 U.S. 558 (2003) . . . . . . . . . 4
Livingwell Med. Clinic, Inc. v. Becerra,
138 S. Ct. 2701 (2018) . . . . . . . . . . . . . . . . . . . . 2
Livingwell Medical Clinic, Inc. et al v. Harris,
4:15-cv-04939-JSW (N.D. Cal. amended
complaint filed Nov. 2, 2015) . . . . . . . . . . . . . . 2
Maher v. Roe, 432 U.S. 464 (1977) . . . . . . . . . . . . . 5

iv
Masterpiece Cakeshop v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719 (2018) . . . . . . . . 11, 12
McDaniel v. Paty, 435 U.S. 618 (1978) . . . . . . . . . . 9
Missouri v. Jenkins, 515 U.S. 70 (1995) . . . . . . . . 13
National Institute of Family and Life Advocates
v. Becerra, 138 S. Ct. 2361 (2018) . . . . . . . . 2, 9
Obergefell v. Hodges, 135 S. Ct. 2584 (2015) . . 4, 18
O’Hare Trucking Serv. v. City of Northlake,
518 U.S. 712 (1996) . . . . . . . . . . . . . . . . . . . . . . 8
Planned Parenthood v. Casey,
505 U.S. 833 (1992) . . . . . . . . . . . . . . . . . . . . . . 4
Roe v. Wade, 410 U.S. 113 (1973) . . . . . . . . . . . . . . 4
Trinity Lutheran Church v. Comer,
137 S. Ct. 2012 (2017) . . . . . . . . . . . . . . . . . . . . 9
Wooley v. Maynard, 430 U.S. 705 (1977) . . . . . . . . 9
Constitutional provisions, statutes,
regulations, and ordinances
Church Amendments, 42 U.S.C. § 300a-7 et seq. . . 6
Coats-Snowe Amendment, 42 U.S.C. § 238n(a) . . . 6
Fair Practices Ordinance, Chapter 9-1100,
Phila. Code, Sec. 9.1106(1)(a)(.2) . . . . . . . . . 15

v
79 Fed. Reg. 77768 (Dec. 24, 2014) . . . . . . . . . . . . . 6
Patient Protection and Affordable Care Act, 26
U.S.C. § 5000A . . . . . . . . . . . . . . . . . . . . . . . . . 6
Patient Protection and Affordable Care Act, 42
U.S.C. §§ 18113, 18081, 18023(b)(1)(A)
& (b)(4)), 14406(1) . . . . . . . . . . . . . . . . . . . . . . . 6
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . 2, passim
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . 5
Weldon Amendment, Departments of Defense
and Labor, Health and Human Services,
and Education, and Related Agencies
Appropriations Act, 2019, Div. B., sec. 507(d),
Pub. L. No. 115-245, 132 Stat. 2981 at 3118 . . 6
Other Authorities
Daniel 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Alexandra DeSanctis, “The Equality Act Could
Mandate Abortion Funding,” National
Review (May 17, 2019) . . . . . . . . . . . . . . . . . . . 6
Comments on Interim Final Rule on Unaccompanied
Children from the United States Conference of
Catholic Bishops, et al. (Feb. 20, 2015) . . . . . . 6
Congregation for the Doctrine of the Faith,
“Considerations Regarding Proposals to Give
Legal Recognition to Unions between
Homosexual Persons” . . . . . . . . . . . . . . . . . . . . 7

vi
“Fugitive Slave Acts,” History.com (Dec. 2, 2009) . 8
2 Maccabees 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Gerard McCarthy, “The disturbing origins of the
Irish Famine term ‘take the soup,’” Irish
Central (Feb. 20, 2020)
https://www.irishcentral.com/roots/history/
irish-famine-take-soup . . . . . . . . . . . . . . . . . . . 8
“3 Connecticut female athletes file federal
discrimination complaint over transgender
competition,” CBSNews.com (June 19, 2019)

13

Mark Yapching, “Religious groups say new DC laws
violate their constitutional freedoms,”
Christianity Today (Feb. 10, 2015) . . . . . . . . . 6

1
INTEREST OF AMICI1
While this cases arises in the specific context of
foster care and same sex couples, the legal standard
this Court embraces will have obvious repercussions
for a host of conscience situations, particularly
regarding abortion.
Life Legal Defense Foundation (LLDF) is a
California nonprofit 501(c)(3) public interest legal and
educational organization that works to assist and
support those who advocate in defense of life. LLDF is
particularly concerned that the Third Circuit’s decision
in this case will facilitate government coercion of those
who refuse to be complicit in the taking of human life
through abortion.
LivingWell Medical Clinic, Inc. (LivingWell),
located in Grass Valley, California, is a faith-based
nonprofit corporation, licensed by the California
Department of Public Health as a Free Clinic. The
primary purpose of LivingWell is to offer pregnancyrelated services to its clients free of charge and
consistent with its religious values and mission.
LivingWell helps women with unplanned pregnancies
meet and accept the stresses and challenges that come
with an unplanned pregnancy. It does this by
presenting all the facts necessary to determine the
best course of action for each individual. LivingWell
addresses every area of concern regarding the
pregnancy – from physical to emotional, economic to
1

The parties in this case have consented to the filing of this
amicus brief. No counsel for any party authored this brief in whole
or in part. No person or entity aside from amici, their members,
or their counsel made a monetary contribution to the preparation
or submission of this brief.

2
social, practical to spiritual, lifestyle to future hopes.
Based on its religious tenets and principles,
LivingWell has never referred, nor will it ever refer,
for abortion. LivingWell’s Statement of Principles
provides it “never advises, provides, or refers for
abortion or abortifacients.”
LivingWell brought suit against the State of
California in 2015 over the state’s requirement that
LivingWell advertise the availability of state
subsidized abortions. In addition to alleging a violation
of the First Amendment rights to free speech,
LivingWell alleged that the California law violated its
rights under the First Amendment’s Free Exercise
Clause. See Amended Complaint, Livingwell Medical
Clinic, Inc. et al v. Harris, 4:15-cv-04939-JSW (N.D.
Cal. Nov. 2, 2015). After this Court’s decision in
National Institute of Family and Life Advocates v.
Becerra, 138 S. Ct. 2361 (2018), this Court granted
LivingWell’s petition for a writ of certiorari and
vacated the Ninth Circuit ruling against LivingWell.
Livingwell Med. Clinic, Inc. v. Becerra, 138 S. Ct. 2701
(2018).
Free Speech Advocates (FSA) is a legal defense
project that exists to secure the First Amendment
rights to engage in religious witness, peaceful sidewalk
counseling, and protest of or conscientious objection to
the destruction of innocent human life. FSA has
appeared as amicus in this Court in previous cases
addressing abortion, euthanasia, and freedom of
conscience. FSA is deeply concerned about the threat
to conscience posed by a state’s attempt to coerce a
private religious agency to become complicit in
something the agency finds morally and religiously
objectionable.

3
SUMMARY OF ARGUMENT
The Third Circuit’s decision approves of a city
forcing private actors to act contrary to their moral
and religious scruples if they want to serve needy
persons. Such a rule, aggravated by the Third Circuit’s
flawed reasoning, jeopardizes the free exercise of
religion in a host of contexts, including abortion. This
Court should reverse.
ARGUMENT
The decision of the court below is a dagger pointed
at the heart of the conscience rights of pro-life
individuals and organizations – those who regard
human abortion as unjust, immoral, destructive,
and/or sinful. This amicus brief aims to illustrate why
that is so, and why it is therefore essential that this
Court reverse the Third Circuit.
I.

THE PRESENT CASE TRANSCENDS ITS
PARTICULAR CONTEXT.

“If you want to serve this vulnerable population,
you have to agree to violate your religious principles
(though you can still believe them in your heart).” That
is the logic of the decision below, and of respondents’
arguments. And this logic goes beyond the controversy
over the placement of at-risk children with same sex
couples directly to the controversy over abortion,
assisted suicide, sex-change surgeries, and a variety of
other controversial issues. Consequently, this Court
should keep firmly in mind the implications of this
case for those persons and entities with conscientious
objections to other controverted practices, such as

4
human abortion.
As an initial matter, it is helpful to note that the
constitutional context of the current case, namely
fallout from this Court’s decisions concerning
homosexual relationships and same-sex marriage,
largely matches that of of the abortion controversy.
First, the exaltation of abortion from historically
condemned and unlawful to assertedly constitutionally
protected flowed from this Court’s divided and hotly
contested rulings. See Roe v. Wade, 410 U.S. 113
(1973); Planned Parenthood v. Casey, 505 U.S. 833
(1992). Compare Lawrence v. Texas, 539 U.S. 558
(2003); Obergefell v. Hodges, 135 S. Ct. 2584 (2015).
Second, this Court, even while rejecting the legal
arguments of those opposed to the Court’s rulings,
recognized emphatically that there are decent, even
admirable reasons for opposition to the practices
afforded constitutional stature by this Court. See Bray
v. Alexandria Women’s Health Clinic, 506 U.S. 263,
270 (1993) (“Whatever one thinks of abortion, it cannot
be denied that there are common and respectable
reasons for opposing it”); Casey, 505 U.S. at 850 (“Men
and women of good conscience can disagree, and we
suppose some always shall disagree, about the
profound moral and spiritual implications of
terminating a pregnancy, even in its earliest stage.
Some of us as individuals find abortion offensive to our
most basic principles of morality”); compare Obergefell,
135 S. Ct. at 2602 (“Many who deem same-sex
marriage to be wrong reach that conclusion based on
decent and honorable religious or philosophical
premises, and neither they nor their beliefs are
disparaged here”). It follows that the viewpoint of
conscientious objectors in these contexts “does not
remotely qualify” as “invidiously discriminatory” or for

5
“derogatory association with racism.” Bray, 506 U.S. at
274.2
Given the broad constitutional parallelism of the
abortion controversy and the controversy over samesex marriage and parenting, any rationale courts
adopt to justify forcing private agencies to violate their
conscientious objections to same-sex parenting – e.g.,
implicitly endorsing the equation of same-sex unions
with marriage – may lend itself to justifying a similar
coercion of anti-abortion entites or individuals to
violate their conscience regarding abortion. In short,
pro-life persons and entities have every reason to fear
that a loss to Catholic Social Services (CSS) here will
be a loss for them as well.3
2

Moreover, this Court’s erection of a barrier to state
prohibition of certain activities does not imply that government is
obligated, much less permitted, to impose such activities – by
compelling participation, cooperation, endorsement, or complicity
– upon an unwilling populace. To the contrary, as this Court held
in the abortion context, a “right” to be free from “unduly
burdensome interference . . . implies no limitation on the
authority of a State to make a value judgment favoring [an
alternative course], and to implement that judgment by the
allocation of public funds.” Maher v. Roe, 432 U.S. 464, 474 (1977)
(rejecting Equal Protection challenge to denial of funding for
abortion in contexts where childbirth is funded).
There is a basic difference between direct state interference
with a protected activity and state encouragement of an
alternative activity consonant with legislative policy.
Id. at 475.
3

Abortion supporters have already sought to exclude pro-life
agencies from government funding and contracts, either as a
matter of law or of policy. E.g., ACLU of Northern California v.
Burwell, No. 3:16-cv-3539 (N.D. Cal. complaint filed June 24,
2016) (suit seeking to compel federal government to exclude from
refugee program grants any entity that refuses to refer for

6
Protection of the conscience of those who object to
abortion, however, has thus far been a standard
feature of the legal landscape, reflecting the broad
societal consensus that individuals should not be made
to participate in actions they believe to be grievously
wrong.4 This Court should reject the arguments that
respondents and the courts below offered to justify the
city’s penalizing of CSS for its conscientious objection
to conduct which the Catholic Church teaches to be

abortion); 79 Fed. Reg. 77768 (Dec. 24, 2014) (interim final rule
that would disqualify as primary grantees any entity that would
not provide information and access to abortion). See Comments on
Interim Final Rule on Unaccompanied Children from the United
States Conference of Catholic Bishops, et al. (Feb. 20, 2015),
available at https://tinyurl.com/USCCB CommentsIFR. And
recent legislative proposals have linked abortion and LGBT
agenda items. See, e.g., Alexandra DeSanctis, “The Equality Act
Could Mandate Abortion Funding,” National Review (May 17,
2019) (“As some of the bill’s own advocates admit, the Equality
Act could be read to mandate taxpayer funding for abortions and
to nullify conscience protections for medical providers who object
to performing abortion procedures”); Mark Yapching, “Religious
groups say new DC laws violate their constitutional freedoms,”
Christianity Today (Feb. 10, 2015) (DC simultaneously adopted
bills restricting religious entities’ ability to act regarding their
views on the “sanctity of human life” and “human sexuality”).
4

At the federal level, for example, there are (1) the Church
Amendments (42 U.S.C. § 300a-7 et seq.); (2) the Coats-Snowe
Amendment (42 U.S.C. § 238n(a)); (3) the Weldon Amendment
(see, e.g., Departments of Defense and Labor, Health and Human
Services, and Education, and Related Agencies Appropriations
Act, 2019, Div. B., sec. 507(d), Pub. L. No. 115-245, 132 Stat. 2981
at 3118); and (4) conscience protection provisions in the Patient
Protection and Affordable Care Act (i.e., 42 U.S.C. § 18113; 42
U.S.C. § 14406(1); 26 U.S.C. § 5000A; 42 U.S.C. §18081; 42 U.S.C.
§§ 18023(b)(1)(A) and (b)(4)).

7
harmful and unjust to children.5
II. THE RATIONALES OFFERED BY THE
COURT BELOW THREATEN THE VIABILITY
OF PROTECTION FOR CONSCIENTIOUS
OBJECTION TO ABORTION.
A. Coercion to violate one’s conscience is one
of the worst violations of Free Exercise.
Being coerced to do something objectionable is one
of the worst violations of conscience and thus a
paradigmatic instance of abridging the free exercise of
religion. Jewish martyrs died horrible deaths rather
than consume the pork their tormentors sought to
force them to eat. 2 Maccabees 7. Others faced
incineration in a furnace rather than bow down before
a golden idol. Daniel 3. The Fugitive Slave Act of 1850,
by “compell[ing] citizens” in free states “to assist in the
capture of runaways,” greatly increased the tensions

5

See Congregation for the Doctrine of the Faith,
“Considerations Regarding Proposals to Give Legal Recognition to
Unions between Homosexual Persons,” No. 7, http://www.vat
ican.va/roman_curia/congregations/cfaith/documents/rc_con_cfa
ith_doc_20030731_homosexual-unions_en.html:
[T]he absence of sexual complementarity in these unions
creates obstacles in the normal development of children who
would be placed in the care of such persons. They would be
deprived of the experience of either fatherhood or motherhood.
Allowing children to be adopted by persons living in such
unions would actually mean doing violence to these children,
in the sense that their condition of dependency would be used
to place them in an environment that is not conducive to their
full human development. This is gravely immoral . . .

8
and divisions in the United States preceding the Civil
War. “Fugitive Slave Acts,” History.com (Dec. 2, 2009).
Of course, coercion need not come via forcible
imposition. The starving Irish Catholics “only” were
told that, to receive soup to sustain their lives, they
had to submit to instruction contrary to their Faith.
Gerard McCarthy, “The disturbing origins of the Irish
Famine term ‘take the soup,’” Irish Central (Feb. 20,
2020), https://tinyurl.com/TakeSoup.
A claim of uniform coercion cannot possibly be a
sufficient defense to such fundamental violation of
religious conscience. Regardless of whether
Employment Division v. Smith, 494 U.S. 872 (1990),
makes sense regarding criminal prohibitions of
behavior that is malum in se, it cannot seriously be the
case, in the Land of Liberty, that the government can
override religious conscience simply by imposing a
“neutral and generally applicable” requirement, for
example, to eat a monthly portion of pork (for health
reasons, of course!), or to work on Sundays (for the
economy!).
Moreover, coercion of religious conscience need not
be global to be offensive and unconstitutional. No
individual “has to” become a physician, but it is
nevertheless a violation of conscience to require all
those who do seek to become physicians to do at least
one abortion while in training. Cf. O’Hare Trucking
Serv. v. City of Northlake, 518 U.S. 712, 716-17 (1996)
(“The Court has rejected for decades now the
proposition that a public employee has no right to a
government job and so cannot complain that
termination violates First Amendment rights, a
doctrine once captured in Justice Holmes’ aphorism
that although a policeman ‘may have a constitutional
right to talk politics . . . he has no constitutional right

9
to be a policeman’”) (citation omitted).
The U.S. Constitution protects against such
coercion of conscience. The government violates the
First Amendment when it extracts from private
parties statements – express or de facto – of points of
view on ideologically contested issues, Wooley v.
Maynard, 430 U.S. 705 (1977), or requires them to
deliver to third parties, by word or action, a message
incompatible with their own beliefs, NIFLA v. Becerra,
138 S. Ct. 2361 (2018). The Free Exercise Clause
particularly bars the government from requiring
individuals or entities to lay aside religious practice as
the price of full citizenship. E.g., McDaniel v. Paty, 435
U.S. 618 (1978) (invalidating law that barred
individual from being a constitutional delegate so long
as he remained a minister); Trinity Lutheran Church
v. Comer, 137 S. Ct. 2012 (2017) (“the exclusion of
Trinity Lutheran from a public benefit for which it is
otherwise qualified, solely because it is a church, is
odious to our Constitution”).
Second-class citizenship cannot be the price of
living life in accord with one’s religious beliefs, absent
some historically recognized overriding government
interest.
Of course, this does not mean a vigorous Free
Exercise Clause would unleash “anarchy,” Smith, 494
U.S. at 888. As with all sound constitutional analysis,
judicial assessment of Free Exercise claims must
consider the contemporaneous historical
understanding of the text, e.g., Bucklew v. Precythe,
139 S. Ct. 1112, 1122 (2019) (“we first examine the
original and historical understanding”), and in
particular regarding what counts as an “evil” that may
be targeted or, conversely, a “compelling interest” that
could justify government suppression of a religious

10
practice. Connecting the right to its historical scope
both respects the constitutional text and provides a
stable basis for adjudication of Free Exercise Claims.
Meanwhile, recourse to history fends off at least two
serious interpretive dangers: (1) the government’s
invention of new “compelling interests” (e.g., reducing
population by limiting families to one child) that could
lead to evisceration of the right to religious freedom,
and (2) treating historically recognized evils (such as
ritual child sacrifice) as constitutionally protected.
B. The Third Circuit gave short shrift to
CSS’s conscience rights.
The decision below contradicts the constitutional
norms discussed above by embracing several flawed
premises.
1. Complete intolerance of diverse approaches
The city decided that CSS’s beliefs about parenting
are incompatible with city policy, and thus under no
circumstances should CSS be allowed to act on those
beliefs when placing needy children. The Third Circuit
more than agreed:
Even if CSS could establish both of the gatekeeping
factors — likelihood of success on the merits and
irreparable harm — neither the balance of the
equities nor the public interest would favor
issuing an injunction here.
Pet. App. 50a. Let that sink in for a minute. Even if
CSS has shown both that it was likely to prevail on the
merits and that it was currently suffering irreparable

11
harm, the Third Circuit would still rule against CSS.
It is difficult to describe this as anything other than
unmitigated hostility to CSS and its beliefs. Cf.
Masterpiece Cakeshop v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719, 1732 (2018) (condemning
hostile treatment of religious objector by government
decisionmaker).
Recall that this is not a case where the government
is merely setting the internal rules for its own
program. No placement program for at risk children is
allowed in Philadelphia aside from those who possess
a city contract (and thus are subject to the city’s
terms). Pet. App. 256a; City BIO 31. CSS’s failure to
submit to the city’s ground rules will result in the
closure of CSS operations serving children in need of
safe and caring homes. The city sets the rules for all
foster care; there is no private opt-out alternative, and
respondents do not suggest otherwise. In short, there
is zero tolerance for a Catholic approach to caring for
at-risk children unable to live with a parent. Pet. App.
48a-49a (“The government’s interest lies not in
maximizing the number of establishments that do not
discriminate against a protected class, but in
minimizing — to zero — the number of establishments
that do.”)
The problem is even worse here, where the city’s
asserted government interest is several steps removed
from the program’s goal of caring for needy children.
CSS does not discriminate against any children. Pet.
App. 158a. The city’s disqualification rule is not aimed
at benefitting at-risk children – who, under the city’s
rule, will in fact suffer the loss of a fostering agency
and thus the loss of additional opportunities to be
placed and for additional parents to be recruited to
foster. Rather, the disqualification rule is aimed at

12
protecting the presumed feelings of adults who, as the
Third Circuit acknowledged, likely would not have
gone to CSS anyway. Pet. App. 49a. Meanwhile, the
feelings of those potential foster parents who want to
go through a religiously traditional agency (like,
analogously, those OB/GYN patients who want a
pro-life physician) count for naught.
CSS further documents in its brief the animosity of
the respondent city. Pet. Br. 24-25. The Third Circuit’s
attempt to whitewash this record was telling. The
Third Circuit invoked a “grey zone” for “remark[s] that
could express contempt for religion” but, then again,
might not, Pet. App. 32a (emphasis added). But this
approach is unavailing. The Third Circuit ignored the
fact that in Masterpiece Cakeshop, while this Court
acknowledged that, theoretically, some of the
statements of government agents might be susceptible
to less sinister interpretations, this Court nevertheless
classified these very same statements as marking the
point where “[t]he hostility surfaced,” 138 S. Ct. at
1729.
For opponents of abortion, the danger is obvious.
The coercive, exclusionary state can always assert:
“We’re not hostile to your religion. We just think
denying abortions is a discriminatory practice. You can
keep your opinions, but you have to act in accordance
with ours.”
2. Using the charge of discrimination as a
universal cudgel
Discrimination is a powerful charge. But it is also a
malleable assertion. This Court has therefore taken
great care to classify different grades of
discrimination, and to separate the real from the

13
tendentious. The Third Circuit and its defenders do no
such thing.
a. Disregard of levels of scrutiny
This Court’s precedents carefully distinguish
between those types of discrimination that trigger
strict scrutiny, such as race discrimination, and those
that do not, such as discrimination based on age or
disability. Compare Missouri v. Jenkins, 515 U.S. 70,
121 (1995) (“we must subject all racial classification to
the strictest of scrutiny”), with City of Cleburne v.
Cleburne Living Center, 473 US. 432, 441-42 (1985)
(age and mental disability discrimination does not
trigger strict scrutiny). The decision below, by
contrast, features no such nuance, instead invoking
discrimination simpliciter. Pet App. 47a (“It is
black-letter law that ‘eradicating discrimination’ is
a compelling interest”); id. at 51a (“Deterring
discrimination . . . is a paramount public interest”).
The lower court’s failure to distinguish types of
“discrimination” put the weight of our nation’s
commitment to atone for centuries of maltreatment of
racial minorities at the service of whatever
newly-minted victim class the state decides to favor
this decade. See e.g., “3 Connecticut female athletes
file federal discrimination complaint over transgender
competition,” CBSNews.com (June 19, 2019) (track
titles in women’s events won by students born male;
“The Connecticut Interscholastic Athletic Conference,
which governs high school sports in the state, says its
policy follows a state anti-discrimination law requiring
students to be treated in school according to the
gender with which they identify . . . as opposed to their
sex . . . at birth”).

14
Abortion opponents have already faced, and thus far
successfully fended off, the charge that opposing
abortion equals invidious sex-based discrimination,
Bray. The Third Circuit’s sloppy endorsement of the
discrimination accusation here, however, threatens to
bring the charge back again by enabling any assertion
of discrimination, regardless of the context, to trigger
compelling government interests in excluding pro-life
persons and providers. See also supra note 3 (abortion
agenda injected into nondiscrimination measures).
b. Equating diversity with discrimination
Ironically, the city itself is discriminating when it
targets for legal shunning those whose actions reflect
traditional religious beliefs. That the charge of
discrimination can be hurled in both directions
illustrates how unhelpful this charge is to the legal
analysis. The Third Circuit wholly disregarded this
conundrum, ruling in essence that the city may
discriminate in the name of nondiscrimination. That
is, rather than allow for a diverse menu of options for
parents seeking to foster children through an agency
most compatible with their values, the city is to
exclude one set of providers – those with traditional
religious beliefs.
Again, the danger to abortion opponents is plain:
governmental bodies that wish to disqualify pro-life
grantees or contractors from public programs can
similarly claim that discriminatorily narrowing the
field of providers by eliminating pro-lifers is, in reality,
a means of combating discrimination against those
who might seek abortion.

15
c. Restricting speech in the name of
eliminating discrimination
The Third Circuit stated that CSS need not
“officially proclaim[] its support for same-sex
marriage.” The City “simply insists that CSS abide by
public rules of non-discrimination in the performance
of its public function under any foster-care contract.”
Pet. App. 42a. However, hidden within the City’s
“simple” demand is a gag on CSS’s speech concerning
its beliefs on traditional marriage and same-sex
relationships. The City’s contract with CSS contained
a provision requiring compliance with Chapter 9-1100
of the Philadelphia Code, i.e., the Fair Practices
Ordinance (FPO). Pet. App. 149a-150a. The FPO, in
turn, makes it a crime for any person or entity subject
to its provisions to “[p]ublish, circulate, issue, display,
post or mail, either directly or indirectly, any written
or printed communication, notice or advertisement to
the effect that . . . the patronage of any such [member
of a protected class] is unwelcome, objectionable or not
acceptable, desired or solicited.” Sec. 9.1106(1)(a)(.2)
Whatever the exact mechanism by which the City
chose to enforce its non-discrimination policy against
CSS, such policy undoubtedly would encompass a
prohibition on CSS or any other foster agency publicly
expressing in any form or forum the belief that, e.g.,
children fare better with a mother and father, or that
same-sex couples provide a less stable home life for
children, much less that same-sex relationships are
contrary to Catholic moral teaching.
It is undisputed that the City cancelled its contract
with CSS not because CSS ever had refused to work
with any same-sex couple, but because CSS would not
promise that CSS would not refuse, in the admittedly

16
highly unlikely event that any same-sex couple
insisted that CSS was the best fit for that couple’s
needs. The Third Circuit admits that this case is not
about what CSS has done or is likely to do; rather “the
mere existence of CSS’s discriminatory policy is
enough to offend the City’s compelling interest in
anti-discrimination.” Pet App. 49a.
When the “anti-discrimination” guns are rolled out,
free speech must retreat.
Again, the danger to pro-life health care
professionals is clear. Indeed, wherever abortion
advocates succeed in tarring opposition to abortion as
discriminatory, there will be no refuge even in areas of
practice where one is highly unlikely to encounter a
woman considering abortion. The government will
insist on the 21st century equivalent of loyalty oaths
as a condition of employment or professional practice.
3. Government involvement transforms human
relations into “public services”
The court below relied repeatedly on the proposition
that foster care is “essentially a public service,” Pet.
App. 42a (emphasis added), indeed “without question
a vital public service,” id. at 51a – meaning, not a
service to the public, but a government function. The
court reached this conclusion despite the fact that CSS
– a private agency – was caring for at-risk children
long before the city decided to monopolize the field. Id.
at 12a.6 By treating care for these children as solely a
6

See Pet. App. 254a:

Q. How did it work? How did you find children and care for
them? Can you walk us through that a little bit?

17
government service or function, the court below made
the imposition of government’s preferred ideology seem
more palatable. But this expansion of the scope of
“public service” knows few, if any, limits. If caring for
children is a public service, what is not? Surely
education is nowadays largely undertaken by
government agencies. Does that mean the government
could insist that private schools toe the government
line on its pet policies (e.g., employee insurance
coverage for abortion, referring pregnant minors for
abortion or sex change operations, etc.)? If caring for
children is a public service, then attending to the
needs of expectant minors or other persons in need can
easily be classified the same way, making it that much
easier to subject private care providers to the
government’s political edicts about what such care
must entail (such as access to abortion on request). See
supra note 3.
Moreover, if caring for at-risk minors is a
government function, then what about health care?
Were the government to monopolize the health care
system (single-payer), what would prevent an
Administration favoring the abortion lobby from
insisting that all doctors, nurses, and other health
workers either perform or refer for abortions

A. Well, the religious sisters who ran Catholic Children’s
Bureau had a deep network of relationships around the city
with parishes and community groups. And when it became
known that a child was at risk, they would do a home
evaluation. If the child needed to be removed – in those
times, many times the parents would agree to that,
because they are called voluntary placement. The child
would be removed, placed in a foster home and we would
track them and the child’s progress in that home.

18
notwithstanding any religious objections?
4. Beliefs okay, acting on beliefs penalized
The bottom line for the Third Circuit was, CSS can
believe what it wants; it just can’t act on those beliefs
without paying a steep price. Or as the court below put
it in more sophisticated language,
CSS is not being excluded due to its religious
beliefs. Indeed, the City has . . . merely insisted
that, if CSS wants to continue providing foster care,
it must abide by the City’s non-discrimination policy
in doing so.
Pet. App. 39a. But, to paraphrase the Chief Justice,
while it is “gracious[]” that the city “suggests that
religious believers may continue to ‘advocate’ and
‘teach’ their views of marriage, . . . [t]he First
Amendment guarantees . . . the freedom to ‘exercise’
religion.” Obergefell, 135 S. Ct. at 2625 (Roberts, C.J.,
dissenting) (emphasis in original).
Under the Third Circuit’s approach, governments
can say, when setting forth conditions for charitable
activities:
• You can believe abortion is murder; you just have to
do them when the government says so.
• You can believe assisted suicide unjustly takes life
and denies equal dignity to sick or disabled persons,
you just have to provide lethal prescriptions.
• You can believe that female genital mutilation,
whether for cultural reasons or for sex-change
purposes, is an atrocity and a human rights
violation, you just have to fund those procedures for

19
your employees.
• You can believe that “God created them male and
female,” you just have to let biological males who
claim to be female play on your school’s girls’ teams,
and you cannot do anything about such males
appearing on your opponent’s “girls’ team” or in the
girls’ bathroom and locker facilities.
In such a world, conscientious objection becomes
empty verbiage, drained of meaning by bureaucratic
mandates.
C. This Court Should Overrule Christian
Legal Society v. Martinez.
One decision of this Court – invoked by both lower
courts in this case, Pet. App. 24a, 81a-83a, 90a-92a &
n.23, but curiously not cited in either brief in
opposition to certiorari – would appear to undermine
this Court’s otherwise unswerving recognition of the
constitutional norms discussed above: Christian Legal
Society v. Martinez, 561 U.S. 661 (2010) (CLS). This
Court should forthrightly repudiate that decision.
In CLS, a government entity imposed the
requirement that, as a condition of the benefits
available to student clubs, every club must adopt a
policy of indifferentism regarding religion and sexual
behavior. Id. at 669-73. In other words, student groups
were relegated to second-class status unless they in
effect professed that a member’s religious beliefs were
irrelevant to the identity and effectiveness of a
religious club, and that one’s departure from
traditional Christian sexual norms – and the
consequent scandal – was irrelevant to the mission
integrity of a Christian group.

20
The university imposed the policy requirement in
CLS upon the entire relevant universe – all students
attending the state law school – as a condition of a
standard, generally available benefit – forming a
recognized club. Furthermore, the requirement was
not directly linked to the program at issue: a policy on
religion or sexual behavior generally has nothing to do
with student club activities (e.g., playing chess), and
where such a policy might be relevant, it could as
easily be completely counterproductive, indeed
nonsensical – e.g., forcing a Jewish club to allow
Muslim or Christian officers.
To the extent that CLS says a government body can
extract a pledge of submission to a currently regnant
ideology or else impose second-class status upon the
population it governs, the CLS decision is deeply and
fundamentally inconsistent with liberty in general and
free speech in particular, and should be overruled.
Because CLS is so profoundly at odds with broader,
preexisting First Amendment principles – principles
CLS did not purport to overturn – this Court should
disavow CLS and its pernicious holding.
This Court’s practice has been to ignore CLS ever
since the CLS decision was issued. Shepard’s reveals
no subsequent decision of this Court relying upon or
even citing the majority’s rationale in CLS. The case
appears to be, like Hill v. Colorado, 530 U.S. 703
(2000), an embarrassing anomaly left on the books but
no longer operative. Unfortunately – as the present
case illustrates – the lower courts do not enjoy this
Court’s power (or even necessarily the inclination) to
disregard such aberrant precedents, which is why this
Court itself needs to overrule CLS for the sake of
clarity and consistency in the law.

21
CONCLUSION
Today the chopping block features those with
scruples about same-sex fostering. Tomorrow’s feature
is the opponents of abortion. And after that?
This Court should reverse the judgment of the Third
Circuit.
Respectfully submitted,
THOMAS P. MONAGHAN
WALTER M. WEBER
FREE SPEECH ADVOCATES
6375 New Hope Rd.
New Hope, KY 40052
(502) 549-7020

CATHERINE W. SHORT
Counsel of Record
ALEXANDRA SNYDER
LIFE LEGAL DEFENSE
FOUNDATION
P.O. Box 2105
Napa, CA 94558
(707) 224-6675
kshort@lldf.org

Counsel for Amici
June 3, 2020

